1=5084 ORIGINAL
o. 21-

IN THE

SUPREME COURT OF THE UNITED STAlW0
APR 0 8 2021
^E^&cToHur?S^k
Donald H. Kimball,
Petitioner,
v.
Altoona, IA. Police Department, Chief Greg Stallman (individual)
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI

Donald H. Kimball (Pro Se)
4813 Ridge Rd Suite 111-57
Douglasville, Ga. 30134
941-447-8911
dhkprose@gmail.com

INDEX OF APPENDIX
Appendix A
United States Court Of Appeals Eighth District
case # 20-2188
Opinion
Filed December 09, 2020

A1-A3

Appendix B
United States District Court for the Southern District of Iowa
case # 4:19-cv-00149-SMR-HCA
Opinion
Filed April 14, 2020

B4(l)-B22(18)
Appendix C

United States Court Of Appeals Eighth District
case # 20-2188,
Order- Rehearing En Banc Denial
Filed January 13, 2021

C23(l)

Appendix D
United States Court Of Appeals Eighth District
case # 20-2188,
Order- Judgment Affirmed
Filed December 09, 2020

D24(l)

Appendix E
United States District Court for the Southern District of Iowa
case # 4:19-cv-00149-SMR-HCA
Judgment - Motion To Dismiss Granted
Filed April 15, 2020

E25(l)

l

Appendix F
In the Iowa District Court For Polk County
case # SPCE083243
Order - Granting Authority To Release Weapon
F26(l)-F28(2)

Filed July 06, 2018
Appendix G

In the Iowa District Court For Polk County
case # 05771ATSMAC376472 (POLK)
Summary Order - Simple Misdemeanor
G29(l).

Filed, June 29, 2018
Appendix H

Warner Robins Georgia Police Incident Report
Case # 2020-0328 - 03/04/2020
March 04, 2020

H30(l)-H32(2)

H

♦*

Appendix A
United States Court Of Appeals Eighth District
case # 20-2188
Opinion
Filed December 09, 2020

A1-A3

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court
December 09, 2020

Mr. Donald H. Kimball
111-57
4813 Ridge Road
Douglasville, GA 30134
RE: 20-2188 Donald Kimball v. Altoona Police Dept, et al
Dear Mr. Kimball:
The court has issued an opinion in this case. Judgment has been entered in accordance
with the opinion. The opinion will be released to the public at 10:00 a.m. today. Please hold the
opinion in confidence until that time.
Please review Federal Rules of Appellate Procedure and the Eighth Circuit Rules on post­
submission procedure to ensure that any contemplated filing is timely and in compliance with the
rules. Note particularly that petitions for rehearing and petitions for rehearing en banc must be
received in the clerk’s office within 14 days of the date of the entry ofjudgment. Counsel-filed
petitions must be filed electronically in CM/ECF. Paper copies are not required. No grace period
for mailing is allowed, and the date of the postmark is irrelevant for pro-se-filed petitions. Any
petition for rehearing or petition for rehearing en banc which is not received within the 14 day
period for filing permitted by FRAP 40 may be denied as untimely.
Michael E. Gans
Clerk of Court
NDW
Enclosure(s)
cc:

Mr. Clerk, U.S. District Court, Southern Iowa
Mr. Seth R. Delutri
Mr. Benjamin R. Erickson
Mr. Jason Palmer
District Court/Agency Case Number(s): 4:19-cv-00149-SMR

1 Of 3
Appellate Case: 20-2188

Page: 1

Date Filed: 12/09/2020 Entry ID: 4983354

tHmteb States Court of Appeals!
Jfor tlje Cigljtl) Circuit

No. 20-2188

Donald H. Kimball
Plaintiff - Appellant
v.
Altoona Police Dept; Greg Stallman, Chief
Defendants - Appellees

Appeal from United States District Court
for the Southern District of Iowa - Central

Submitted: December 4, 2020
Filed: December 9, 2020
[Unpublished]

Before BENTON, KELLY, and GRASZ, Circuit Judges.

PER CURIAM.
Donald Kimball appeals the district court’s1 dismissal, under Federal Rule of
Civil Procedure 12(b), of his pro se 42 U.S.C. § 1983 action. Having carefully
‘The Honorable Stephanie M. Rose, United States District Judge for the
Southern District of Iowa.
2 of 3
Appellate Case: 20-2188

Page: 1

Date Filed: 12/09/2020 Entry ID: 4983354

reviewed the record and the parties’ arguments on appeal, we find no basis for
reversal. See Montin v. Moore, 846 F.3d 289, 292 (8th Cir. 2017) (de novo review
of Rule 12(b)(6) dismissal). The judgment is affirmed. See 8th Cir. R. 47B.

-23 of 3
Appellate Case: 20-2188

Page: 2

Date Filed: 12/09/2020 Entry ID: 4983354

Case4:19-cv-00149-SMR-HCA Document23 Filed 04/14/20 Page lot 18

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF IOWA
CENTRAL DIVISION
DONALD H. KIMBALL,
Plaintiff,
v.
ALTOONA, IOWA, POLICE
DEPARTMENT; CHIEF GREG
STALLMAN (individual),
Defendants.

)

Case No. 4:19-cv-00149-SMR-HCA

)
)
)
)

)
)

ORDER ON DEFENDANTS5
MOTION TO DISMISS

)
)
)
)

Plaintiff, Donald H. Kimball, filed this lawsuit against local law enforcement following an
altercation involving guns, money, and one fateful game of “Three Card Monte55 that led to his
arrest. [ECFNo. 1]. Defendants moved to dismiss. For the reasons discussed below, Defendants’
Motion to Dismiss, [ECF No. 7], is GRANTED. Plaintiffs Motion for Leave to Amend, [ECF
No. 21], is DENIED. l
I. BACKGROUND
For the purpose of Defendants’ Motion to Dismiss, the Court accepts as true the factual
allegations set forth in the Complaint. See Brown v. Medtronic, Inc., 628 F.3d 451, 459 (8th Cir.
2010) (indicating that courts must accept as true the plaintiffs factual allegations, but they need not
accept as true the plaintiffs legal conclusions). On June 28, 2018, Plaintiff was parked at the
Flying J truck stop in Altoona, Iowa, while driving his motor home from Georgia to North Dakota
to start a new job. [ECF No. 1^19]. A man approached Plaintiff and informed him of another man

i

Defendants requested oral argument, but the Court finds a hearing to be unnecessary.
See LR 7(c). As such, Plaintiffs Motion Opposing Oral Argument, [ECF No. 18], is GRANTED.

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 2 of 18

who had won some money at the nearby casino and was giving away $200 in gas money to veterans
who would shake his hand. Id.

19-20. Plaintiff followed the man past several rows of parked

trucks to the back of the parking lot where he encountered a group of five men playing “Three Card
Monte,” a card game used to swindle unsuspecting participants through deception and
sleight-of-hand. See id.

21-22. One of the men, identified by Plaintiff as the “dealer,” held a

considerable amount of money. Id. | 23. As Plaintiff reached out to shake the man’s hand, the
dealer proposed to instead match the amount of cash Plaintiff had with him. Id.

24-25. Plaintiff

left to retrieve $1,300 fromhis motor home. Id. |2 6. He returned to the group with his money—and
his pistol. Id. ff 26-27. At the time of the incident in question, Plaintiff, a Georgia resident, had a
valid weapons-carry license issued by his home state. Id. | 10. Iowa law grants reciprocity to
weapons-carry licenses issued by other states and recognizes Plaintiffs right to carry a concealed
firearm. See Iowa Code § 724.11 A.
When Plaintiff handed over his money to be counted by the supposedly beneficent card
dealer, the other men in the group started yelling at Plaintiff to “find the Jack”—a reference to the
object of Three Card Monte. Id. ^ 29-30. Plaintiff states he attempted to grab his money
back—disavowing any intention of playing the card game—but he was confronted by the other men
in the card group who hit him and pushed him away. Id.
money. Id.

32-33. The dealer bolted with Plaintiff s

31-32. Plaintiff, confronted by the four other men advancing upon him, drew his

firearm; they dispersed. Id. fflj 32-35.
Plaintiff gave chase. See id.

36-38. Plaintiff initially pursued the dealer (who still had

Plaintiff’s money), but soon lost sight of him and started after the others instead. Id.

37. Plaintiff

witnessed the other men pile into a minivan and, as they sped away, fired at least one shot from his

-2-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 3 of 18

firearm “[i]n the hopes of getting them to stop.” Id. f 38. Plaintiff then stashed his firearm in his
mobile home. Id.% 39.
When law enforcement arrived on the scene, the dealer remained at-large. See id. fl 37,45.
Plaintiff informed them of the events that transpired and the location of his loaded pistol, and an
officer immediately entered Plaintiffs motor home to secure the firearm. Mfl 40,43. Defendants
ultimately apprehended the other individuals involved in the encounter shortly thereafter. Id.

47.

Plaintiff and the other men were then transported to the Altoona police station. Id.

49.

After interviewing Plaintiff and the members of the card-playing group, Defendants arrested
Plaintiff for discharging his firearm within city limits, in violation of Altoona City Code § 41.08
(2018). See id. Yf[ 51-58. The other individuals were allowed to leave. See id. H 60. Bail was set
at $300, but Plaintiff chose to wait in a cell until he could be seen by a judge. Id. ^ 64—65. At his
arraignment several hours later, he pleaded guilty to a simple misdemeanor and paid a $100 fine.

Id. t 67.
Afterwards, Plaintiff contacted the Altoona Police Department to retrieve his driver’s license
and firearm, both of which had been confiscated by Defendants upon his arrest. Id. f 69. Plaintiff
was informed Defendants would not return the weapon to him and no longer possessed his driver’s
license because it had been lost. Id. ^ 70. Plaintiff complains his firearm was returned to him
several weeks later only after much communication with Polk County Courthouse and Altoona City
Attorney’s Office. See id.

74-78. As a result, Plaintiff was forced to stay in Iowa until the return

of his personal items and missed two weeks of employment he had anticipated in North Dakota.
See id. 179.
Plaintiff raises seven claims in his pro se Complaint: breach of legal duty (Count I);
defamation (Count II); criminal conspiracy (Count III); unlawful seizure of property (Count IV);

-3-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 4 of 18

cruel and unusual punishment (Count V); violation of civil and constitutional rights under 42 U.S.C.
§ 1983 (Count VI); and violation of rights protected under the Second, Fourth, Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution (Count VII). Id. at 23-24. Defendants
promptly moved to dismiss. [ECF No. 7].
II. STANDARD OF REVIEW
The Federal Rules of Civil Procedure require a complaint to present “a short and plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Though
pro se pleadings are held “to less stringent standards than formal pleadings drafted by lawyers,”
Haines v. Kerner, 404 U.S. 519, 520 (1972), a complaint is subject to dismissal when it “fail[s] to
state a claim upon which relief can be granted,” Fed. R. Civ. P. 12(b)(6). To meet this standard, “a
complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Braden v. Wal-Mart Stores, Inc., 588 F.3d 585, 594 (8th Cir. 2009) (citation
omitted). All reasonable inferences are drawn in the plaintiffs favor, Crooks v. Lynch, 557 F.3d
846, 848 (8th Cir. 2009), but a plaintiff must plead more than mere “labels and conclusions” or
“‘naked assertions]’ devoid of ‘further factual enhancement.’” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (alteration in original) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 557

(2007)).
III. ANALYSIS
Plaintiffs seven-count Complaint is better understood as asserting six distinct grievances
against the Altoona Police Department and Chief Stallman for their handling of the altercation with
the men playing Three Card Monte. Each will be considered in turn.2 None have merit.

2 Section 1983 imposes liability on “[ejvery person who, under color of any statute,
ordinance, regulation, custom, or usage . . . subjects, or causes to be subjected, any citizen of the
United States or other person ... to the deprivation of any rights, privileges, or immunities secured

-4-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 5 of 18

.«»

A. Breach ofLegal Duty
Count I of Plaintiffs Complaint alleges Defendants breached a legal duty owed to him in
the course of their response to the incident at the Flying J. His claim is predicated on two
allegations: first, Plaintiff asserts Defendants failed to fulfill their duty to uphold the law and arrest

i

the group of card players when Defendants “releasefed] the perpetrators” and arrested him instead;
second, Plaintiff contends Defendants violated their duty to keep him safe when they decided to
“paradef] [him] by such perpetrators” as they escorted Plaintiff out of the police station to the jail
for booking. See [ECF No. 1 at 23]. Defendants contend the former is barred by the public duty
doctrine, and the latter by discretionary function immunity. The Court agrees.
The public duty doctrine defeats Plaintiffs first allegation. A duty is actionable only insofar
as a relationship between individuals imposes a legal obligation upon one for the benefit of the
other.

Sankey v. Richenberger, 456 N.W.2d 206, 209 (Iowa 1990).

“Under the public-duty

doctrine, ‘if a duty is owed to the public generally, there is no liability to an individual member of
that group.’” Estate ofMcFarlin v. State, 881 N.W.2d 51,58 (Iowa 2016) (quoting Kolbe v. State,
625 N.W.2d 721, 729 (Iowa 2001)). In other words, “[t]he public-duty doctrine applies when the
state’s duty is owed to the general public rather than to a particularized group of persons.” Id. at 62.
Defendants’ decision to arrest Plaintiff, rather than the alleged con men, clearly falls within the
scope of their duty to the public generally, not Plaintiff individually.
Two exceptions constrain the public duty doctrine to create a legal duty to act on behalf of
or protect the health and welfare an individual citizen: “[w]here the police create the situation which
places the citizen’s life in jeopardy”; and “[w]here the police take a citizen into custody or control.”

by the Constitution and laws.” 42 U.S.C. § 1983. Because Plaintiffs constitutional claims are
enforced against municipal actors through that statute, the Court’s analysis reflects an application
of Plaintiff s constitutional claims in Counts VI and VII through that lens.
-5-

t

i

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 6 of 18

Hawkeye Bank & Tr. v. Spencer, 487 N.W.2d 94, 96 (Iowa Ct. App. 1992). Neither is applicable
under the first allegation made here.

The bottom line is that “Iowa does not recognize an

independent tort for negligent investigation of crime by law enforcement officers.” Hildenbrand v.
Cox, 369 N.W.2d 411, 415 (Iowa 1985) (citing Smith v. State, 324 N.W.2d 299, 300 (Iowa 1982));
see also Sankey, 456 N.W.2d at 209-10 (affirming dismissal of negligence claims against police
chief for failing to prevent fatal shooting spree).
Plaintiff’s second allegation is barred by Defendants’ statutory discretionary-function
immunity. The Iowa Municipal Tort Claims Act (“IMTCA”) immunizes local government officials
and employees from “[a]ny claim . . . based upon the exercise or performance or the failure to
exercise or perform a discretionary function or duty .. . whether or not the discretion is abused.”
Iowa Code § 670.4(l)(c). Iowa courts, adopting the two-part test of Berkovitz v. United States,
486 U.S. 531,536—37 (1988), apply discretionary-function immunity where (1) the contested action
was a matter ofjudgment or choice for the acting employee; and (2) the action required an element
ofjudgment that the exemption was designed to shield. Cline v. Union Cty.f 182 F. Supp. 2d 791,
799 (S.D. Iowa 2001) (citing City of Cedar Falls v. Cedar Falls Crhty. Sch. Dist617 N.W.2d 11,
18 (Iowa 2000); Goodman v. City of Le Claire, 587 N.W.2d 232, 237-38 (Iowa 1998)).
“[A]... law enforcement officer’s on-the-spot decisions concerning how to effectuate an
arrest... fall within the discretionary function exception ... absent a specific mandatory directive
to the contrary.” Hart.v. United States, 630 F.3d 1085, 1090 (8th Cir. 2011).3 This obviously
includes the method of Plaintiff’s arrest and transport.

3 Because Iowa has expressly adopted Berkovitz's two-part test for determining
discretionary function immunity under the Federal Tort Claims Act, authorities applying that federal
statute are persuasive in analyzing Iowa’s identical immunity scheme under the IMTCA.
-6-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 7 of 18

B. Defamation
Plaintiff next alleges, in Count II, that Defendants defamed him by concluding he was “a
sore losing gambler.” See [ECF No. 1 at 23]. “At common law, defamation involved the following
elements: (1) publication, (2) of a defamatory statement, (3) which was false and (4) malicious,
(5) made of and concerning the plaintiff, (6) which caused injury.” Bierman v. Weier, 826 N.W.2d
436, 443-44 (Iowa 2013). Plaintiff’s defamation claim appears to be premised on two events: the
story of the alleged con men that Plaintiff “was a willing participant [of the card game] and he was
just a sore loser,” repeated to Plaintiff during his interview by the investigating detective; and
Defendants’ resulting decision to arrest Plaintiff for discharging his firearm within city limits.
See [ECF No. 1

54, 58].

Plaintiff fails to advance facts that, assumed to be true, satisfy the first element—that
Defendants published any defamatory statement about him. “To prove publication, a party must
demonstrate the challenged communication was made ‘to one or more third persons.’” Bandstra v.
Covenant Reformed Church, 913 N.W.2d 19,47 (Iowa 2018) (citation omitted). Here, by contrast,
the Complaint alleges only that the statement complained of was made by the con men and repeated
to Plaintiff himself, not anybody else outside the police department. And to the extent the statement
is alleged to have been associated with Plaintiffs arrest-—by implication, forming the basis for his
arrest—it is well within the discretionary function of the municipal police department in conducting
its investigations and making arrests. See Iowa Code § 670.4(l)(c). The Complaint therefore fails
to state an actionable claim for defamation.
C. Conspiracy
In Count III, Plaintiff claims Defendants conspired to further the criminal activities of the
card-playing con men by releasing them from custody without charges despite their role in the

-7-

Case 4:l9-cv-00l49-SMR-HCA Document 23 Filed 04/14/20 Page 8 of 18

altercation and arresting Plaintiff instead. See [ECF No. 23-24]. Both Plaintiff and Defendants
invoke Iowa Code § 706.1. Never mind that § 706.1 is a criminal statute, and neither party provides
authority for the proposition that Plaintiff may civilly enforce the state criminal code. Conspiracy
generally requires an agreement between two or more parties to commit a wrong and for at least
one co-conspirator to take affirmative steps towards accomplishing that act; both criminal and civil
conspiracy require the parties to have agreed to further some underlying crime or tort. See Iowa
Code § 706.1(1), (3); Ezzone v. Riccardi, 525 N.W.2d 388, 398 (Iowa 1994) (citing Restatement
(Second) of Torts § 876 (Am. Law Inst. 1979)).

The Complaint is devoid of any specific,

non-conclusory allegation of such agreement.
More fundamentally, though, the Complaint fails to satisfy federal pleading standards by
stating a conspiracy claim that is plausible, not merely possible. Plaintiffs accusation amounts to
nothing more than a “naked assertion” that Defendants agreed to corruptly enforce the law so as to
benefit a group of card-playing con men at Plaintiffs expense. See Twombly, 550 U.S. at 557. An
“obvious alternative explanation” for Defendants’ conduct is that they found the hooligans’ version
of events to be more credible than Plaintiff s, or simply did not have enough information to establish
probable cause for their arrest. See Iqbal, 556 U.S. at 682. Given this “obvious alternative
explanation,” criminal conspiracy is not a plausible inference drawn from the facts alleged by
Plaintiff. Id. “[W]ithout some further factual enhancement [Plaintiffs accusation] stops short of
the line between possibility and plausibility of ‘entitlement] to relief.’” Twombly, 550 U.S. at 557
(second alteration in original) (citation omitted).
D. Seizure ofProperty
Plaintiff next claims, through his allegations in Counts IV, VI, and VII, that Defendants
unlawfully seized his firearm and illegally refused to return it upon Plaintiffs release from jail in

-8-

case 4H9-CV-00149-SMR-HCA Document 23 Filed 04/14/20 Page 9 of 18

violation of his Second, Fourth, and Fourteenth Amendment rights. He also asserts Defendants
failed to follow statutory procedures under Iowa law for the confiscation and prompt return of his
seized property. Though Defendants eventually returned Plaintiff’s firearm, they apparently lost
his driver’s license.
1. Initial seizure
Turning first to the initial confiscation of Plaintiff’s firearm, it is clear that the seizure of his
weapon did not violate any constitutional right. The exigent circumstances exception to the Fourth
Amendment’s warrant requirement clearly provided an objective reasonable basis for Defendants
to conduct a search of Plaintiff’s mobile home and seize his firearm after shots had been fired,
individuals involved in the altercation were still at-large, and the weapon was not secured. The
United States Court of Appeals for the Eighth Circuit has, in many cases, found a warrantless search
objectively reasonable in similar circumstances. See, e.g., United States v. Valencia, 499 F.3d 813,
816 (8th Cir. 2007); United States v. Janis, 387 F.3d 682, 687-88 (8th Cir. 2004); United States v.
Arcobasso, 882 F.2d 1304,1306 (8th Cir. 1989). Bluntly, the search of Plaintiff’s mobile home and
seizure of his loaded firearm was proper under the Fourth Amendment.
Plaintiff argues the officers were not authorized to seize his firearm because he was justified
in defending himself under Iowa’s new “stand your ground” legislation.4 See Iowa Code § 704.13
(“A person who is justified in using reasonable force against an aggressor in defense of oneself,
another person, or property pursuant to section 704.4 is immune from criminal or civil liability for
all damages incurred by the aggressor pursuant to the application of reasonable force.”). But,

4 See 2017 Iowa Acts ch. 69, §§ 37-44 (codified at Iowa Code §§ 704.1-.3, .7, .13;
id. § 707.6).
-9-

«

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 10 of 18

crucially, defense of one’s person or property is “justified” only “in the use of reasonable force.”
Id. §§ 704.3, .4 (emphasis added). “Reasonable force” is defined as
that force and no more which a reasonable person, in like
circumstances, would judge to be necessary to prevent an injury or
loss and can include deadly force if it is reasonable to believe that
such force is necessary to avoid injury or risk to one’s life or safety
or the life or safety of another, or it is reasonable to believe that such
force is necessary to resist a like force or threat.
Id. § 704.1(1) (emphasis added). A very cursory reading of the state’s “stand your ground”
legislation reveals that Iowa law does not permit the use of deadly force in defense of property.
Id. § 704.4 (“A person is justified in the use of reasonable force to prevent or terminate criminal
interference with the person’s possession or other right in property.”). And the facts alleged in the
Complaint do not support the contention that Plaintiff was j ustified in using deadly force in defense
of himself when, after brandishing his firearm and dispelling any immediate threat of physical
violence to himself, Plaintiff chose to give chase to the con men in hot pursuit of his money and
discharged his weapon at the fleeing individuals. [ECF No. 1 f 38]. Whatever else may be said
about Iowa’s “stand your ground” legislation, it does not deputize a private citizen to take law
enforcement into his own hands.
Because the seizure of Plaintiff’s firearm did not violate the Fourth Amendment, neither
does it violate his right to bear arms or due process. “Lawful seizure ... of firearms ... does not
violate the Second Amendment.” Rodgers v. Knight, 781 F.3d 932, 941 (8th Cir. 2015).5 And

5 In a single sentence, Plaintiff raises a constitutional challenge to the municipal ordinance
prohibiting the discharge of firearms within city limits under the Second Amendment. [ECF No. 15
at 26]. That argument is specious, for it is well established that the Second Amendment protects
the possession of firearms, not their discharge. Cf Dist. of Columbia v. Heller, 554 U.S. 570, 592
(2008). Indeed, “the right secured by the Second Amendment is not unlimited.” Id. at 626. The
right to self defense is provided by the Iowa “stand your ground” law, and that, too, is limited. To
the extent Plaintiff argues the municipal firearm ordinance conflicts with § 704.13, it does not.
-10-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 11 of 18

“[w]hen seizing property for criminal investigatory purposes, compliance with the Fourth
Amendment satisfies pre-deprivation procedural due process as well.” Walters v. Wolf, 660 F.3d
307, 314 (8th Cir.2011) (alteration in original) (citing PPS, Inc. v. Faulkner Cty., 630 F.3d 1098,
1107 (8th Cir.2011)).6 Plaintiff was due no more process prior to the seizure of his firearm.
2. Retention of property
Chapters 808 and 809 of the Iowa Code lay out procedures for law enforcement to follow
when seizing, documenting, and returning confiscated property of a criminal suspect. Property
seized by arresting officers “shall be safely kept... so long as reasonably necessary to enable its
production at trials.” Iowa Code § 808.9; see also id. § 808.8 (requiring seizing officer to maintain
an inventory of the property taken). When an individual seeks the return of his confiscated property,
the statute permits him to “make application for its return in the office of the clerk of court for the
county in which the property was seized,” providing a replevin-like remedy. See Iowa Code
§ 809.3(1); see also id. § 809.5(1). The claimant is then entitled to a hearing no more than thirty
days after filing the application. Id§ 809.4.
The Complaint does not indicate that Plaintiff followed these statutory procedures, but in
fact admits his firearm was returned when he threatened to do so. See [ECF No. 1 fl 75-78]. That
complaint is thus moot. Plaintiff also alleges his driver’s license was never returned to him. But
without such an application being filed with the state district court, and no mechanism in the statute

6 Plaintiff also briefly argues he was discriminated against on the basis of his Georgia
residency because he was not afforded immunity under the Iowa “stand your ground” law, in
violation of the Equal Protection Clause of the Fourteenth Amendment. See [ECF No. 15 at 33].
Even viewed liberally, however, his pro se Complaint does not state an equal protection claim. Even
if it did, the Complaint does not identify any non-Georgia citizen who was treated differently, or
even that Plaintiff was similarly situated under the circumstances.
-11-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 12 of 18

providing for a civil action for violation of these prescribed procedures, the Court is unable to
conclude that Plaintiff has successfully stated a claim under chapter 809 of the Iowa Code.
Even assuming Defendants failed to follow the statutory procedures governing the return of
his seized property, this does not, itself, violate Plaintiffs Fourteenth Amendment rights. See Meis
v. Gunter, 906 F.2d 364, 369 (8th Cir.1990) (“A violation of state law, without more, is not the
equivalent of a violation of the Fourteenth Amendment.”). Plaintiff essentially claims his due
process rights were violated when Defendants did not immediately return his property after
Plaintiffs release from jail, delaying the return of his confiscated firearm, and losing his driver’s
license. See [ECF No. 15 at 29]. “Procedural due process imposes constraints on governmental
decisions which deprive individuals of ‘liberty’ or ‘property’ interests within the meaning of the
Due Process Clause of the Fifth or Fourteenth Amendment.” Mathews v. Eldridge, 424 U.S. 319,
332 (1976). Procedural due process, therefore, is primarily concerned with “what process is due.”
Id. at 333.
The United States Court of Appeals for the Eighth Circuit “has recognized a due process
claim under § 1983 where police officers refuse to return seized items to their owner without a court
order after it is determined that the items were not contraband or required as evidence in a court
proceeding.”

Rodgers, 781 F.3d at 945 (emphasis added) (citing Lathon v. City of St.

Louis, 242 F.3d 841, 843-44 (8th Cir. 2001)); see also Walters, 660 F.3d at 314-15 (holding
deprivation of firearms violated due process when officers refused to return the property “with no
legal grounds” to do so). That does not appear to be the case under the facts alleged by Plaintiff.
Here, by contrast, the facts alleged in the Complaint state that Plaintiff was under investigation for
more serious crimes stemming from the truck stop altercation—attempted murder—at the time he
requested the return of his firearm. [ECF No. 1 % 82]. And, he admits, he “verbally vowed to [the

-12-

case 4:i9-cv-uui4y-bMK“HCA Document

i-nea 04/14/zu page id or lb

card players] that he was going to get his money back” in front of arresting officers, indicating a
possible threat of future violence. See id.

81.

To the extent Plaintiff alleges the continued detention of his firearm constituted a violation
of his rights under the Second and Fourteenth Amendments, the facts alleged in the Complaint fail
to support such a claim. Rodgers, 781 F.3d at 941 (holding no due process violation occurred after
three-month retention when law enforcement believed seized firearms were evidence that the
plaintiff had unlawfully possessed them and were promptly returned when that theory was
dispelled). As for Plaintiffs lost driver’s license, “the Due Process Clause is simply not implicated
by a negligent act of an official causing unintended loss of or injury to life, liberty, or property.”
Daniels v. Williams, 474 U.S. 327, 328 (1986); see also Davenport v. Giliberto, 566 F. App’x 525,
528-29 (7th Cir. 2014).
E. Conditions ofConfinement
Plaintiff alleges in Counts V, VI, and VII that Defendants inflicted cruel and unusual
punishment on him when Plaintiff was “placed, shackled and thrown into a holding cell at the Polk
County jail where it was cold, filthy, and overcrowded.” [ECF No. 1-1 ^ 61]; see also id. f 58.
Plaintiff complains the shackles “limited [his] mobility and caused serious and painful discomfort,”
“[t]he benches were steel and ice cold,” the jail also housed other detainees who ‘Svere drunks,
shady, and vicious looking characters” with various emanating bodily odors, and the latrine was
filled to capacity. Id. ^ 61. He also complains the jail was dangerous because after the booking
process he was left unrestrained, but other detainees were, too. Id.

66. On one hand, Plaintiff

appears to be challenging the conditions of his very brief confinement as a pre-trial detainee; on the
other, he asserts that his temporary detention was “only done to purposely cause [him] cruel and
unusual harm.” Id. at 24.

-13-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 14 of 18

Because the Eighth Amendment is concerned only with the punishment of a crime for which
a person has been tried and found guilty, the rights of pre-trial detainees are governed by the Due
Process Clause of the Fourteenth Amendment. Bell v. Wolfish, 441 U.S. 520, 535 & n.16 (1979).
“The proper inquiry is whether those conditions amount to punishment of the detainee, for, under
the Due Process Clause, a detainee may not be punished prior to an adjudication of guilt.” Smith v.
Copeland, 87 F.3d 265, 268 (8th Cir. 1996). “Absent a showing of an expressed intent to punish
on the part of detention facility officials,” a condition of confinement does not amount to
impermissible “punishment” if it is “reasonably related to a legitimate governmental objective.”
Wolfish, 441 U.S. at 538-39. Conversely, a condition that is “arbitrary or purposeless” raises an
inference that the condition amounts to “punishment that may not constitutionally be inflicted upon
detainees qua detainees.” Id. at 539.
The Complaint does not allege any facts that raise a plausible claim Defendants intentionally
sought to punish Plaintiff through his detainment and conditions of his confinement. To the extent
Plaintiff contends his arrest and confinement, itself, violated his constitutional rights, that allegation
is unfounded. Under the facts alleged by the Complaint, Defendants were justified in arresting and
detaining Plaintiff in a jail cell after the conclusion of their investigation, as described above. See
Tennessee v. Garner, 471 U.S. 1, 7 (1985) (“A police officer may arrest a person if he has probable
cause to believe that person committed a crime.”). And “[o]nce the Government has exercised its
conceded authority to detain a person pending trial, it obviously is entitled to employ devices that
are calculated to effectuate this detention.” Bell, 441 U.S. at 537. Defendants have legitimate
interests stemming from the government’s need to manage the safety and security of the facility in
which Plaintiff was detained. Copeland, 87 F.3d at 268. Their actions taken to temporarily restrain
Plaintiff and other detainees are certainly rationally related to this legitimate interest.

-14-

Case 4:19-cv-00149~SMR-HCA Document 23 Filed 04/14/20 Page 15 of 18

As for “[Plaintiff s] desire to be free from discomfort, it suffices to say that this desire simply
does not rise to the level of [a] fundamental liberty interest!].” Wolfish, 441 U.S. at 534; see also
Copeland, 87 F.3d 268 (“[TJhere is a de minims level of imposition with which the Constitution is
not concerned.”). Plaintiffs account of his booking and (very brief) stay in the city detention
facility is unremarkable. Plaintiff states he was placed in a holding cell only until he was processed
by the jail. [ECF No. 1

61-62]. Rather than choosing to pay bail to secure his release, Plaintiff

waited several hours longer before pleading guilty and paying a fine at his arraignment before a
judge. Id.

65, 67. “But the Constitution ‘does not mandate comfortable prisons’; it prohibits

‘inhumane ones.’” Williams v. Delo, 49 F.3d 442, 445 (8th Cir. 1995) (citation omitted). “[0]nly
those deprivations denying ‘the minimal civilized measure of life’s necessities’ are sufficiently
grave to form the basis of a[] [constitutional] violation.” Wilson v. Setter, 501 U.S. 294,298 (1991)
(quoting Rhodes v. Chapman, 452 U.S. 337, 347, 349 (1981)). In short, none of Plaintiffs
complaints about the conditions of his very brief confinement arises to a level that states a violation
of his pretrial right to due process. See, e.g., O’Leary v. Iowa State Men’s Reformatory, 79 F.3d
82, 83 (8th Cir. 1996) (per curiam) (holding an inmate “deprived of underwear, blankets and
mattress, exercise, and visits” did not establish a constitutional violation); Copeland, 87 F.3d at 268
(same, where detainee alleged he was subjected to “raw sewage” from “an overflowed toilet in his
isolation cell”); Seltzer-Bey v. Delo, 66 F.3d 961, 963-64 (8th Cir. 1995) (same, where inmate was
placed “in the strip cell for two days without clothing, bedding, or running water, with a concrete
floor, a concrete slab for a bed, and cold air blowing on him”); Williams, 49 F.3d at 444-45 (same,
where inmate was provided no clothes, running water, hygiene supplies, blanket, or mattress).
Without conducting amounting to “punishment,” the conditions of Plaintiffs confinement
necessarily cannot violate the Eighth Amendment’s “cruel and unusual” prohibition. But even if

-15-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 16 of 18

the Eight Amendment’s “deliberate indifference” standard did apply, Plaintiffs allegations do not
show a “serious deprivation of ‘the minimal civilized measure of life’s necessities’ and ‘offending
conduct [that is] wanton.’” See Key v. McKinney, 176 F.3d 1083, 1086 (8th Cir. 1999) (alteration
in original) (citation omitted). “Deliberate indifference” requires “more than ordinary lack of due
care for the prisoner’s interests or safety.” Farmer v. Brennan, 511 U.S. 825, 835 (1994) (quoting
Whitley v. Albers, 475 U.S. 312, 319 (1986)). However analyzed, the Complaint fails to state a
claim regarding the conditions of Plaintiff s confinement.
F. Right to Counsel
In Count VII, Plaintiff claims Defendants “did not read him his right [sic] or offer him any
counsel,” invoking the Sixth Amendment. [ECF No. 1 at 24]. The Sixth Amendment provides:
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the state and district
wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the
nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining
witnesses in his favor, and to have the assistance of counsel for his
defense.
But an accused’s rights under the Sixth Amendment are not implicated until the initiation of
adversarial criminal proceedings by indictment or trial information. See Beckv. Bowersox, 362 F.3d
1095, 1101 (8th Cir. 2004) (“The Sixth Amendment right to counsel attaches at a preliminary
hearing or arraignment.”). Nothing in the Complaint indicates Plaintiff was not afforded appointed
counsel at his arraignment, where he pleaded guilty to violating the Altoona city'ordinance.
Plaintiff instead appears to be asserting Defendants violated his rights under Miranda v.
Arizona—requiring law enforcement to inform an accused of his right to remain silent and right to
an attorney prior to custodial police interrogation—which are protected under the Fifth and
Fourteenth Amendments. 384 U.S. 436, 474 (1966). But no Miranda violation actually occurs
-16-

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 17 of 18

until law enforcement attempts to use self-incriminating statements against a criminal defendant at
trial. See Chavez v. Martinez, 538 U.S. 760, 772 (2003) (plurality op.) (noting “the Miranda
exclusionary rule as a prophylactic measure to prevent violations of the right protected by the text
of the Self-Incrimination Clause”). And in any event, a violation of the Miranda safeguards does
not give rise to a civil rights claim for money damages; the remedy for such a violation is exclusion
of evidence in the criminal case—not a private cause of action. Hannon v. Sanner, 441 F.3d 635,
638 (8th Cir. 2006) (holding that the remedy for an alleged Miranda violation is the exclusion of

i

any self-incriminating statements from evidence, not an action under § 1983); see also Chavez,

j

538 U.S. at 772 (plurality op.) (concluding that a police officer’s “failure to read Miranda warnings
to [the plaintiff] did not violate [his] constitutional rights and cannot be grounds for
a § 1983 action”); id. at 790 (Kennedy, J., concurring in part and dissenting in part) (agreeing that
“[t]he exclusion of unwarned statements, when not within an exception [to the Miranda rule], is a
complete and sufficient remedy”). Thus, the Complaint fails to state a claim on this basis as well.
G. Leave to Amend and Supplement
Well after Defendants filed their Motion to Dismiss, Plaintiff moved to amend his
Complaint. [ECF No. 21]. A plaintiff is entitled to amend the pleadings once as a matter of course
within twenty-one days after the pleadings have been served or twenty-one days after service of a
motion under Rule 12(b), (e), or (f), whichever is earlier. Fed. R. Civ. P. 15(a)(1). Amendments to
pleadings outside this timeframe may be made “only with the opposing party’s written consent or
the court’s leave,” which is to be given freely “when justice so requires.” Fed. R. Civ. P. 15(a)(2).
Likewise, the Court may, in its discretion, “permit a party to serve a supplemental pleading setting
out any transaction, occurrence, or event that happened after the date of the [initial] pleading.” Fed.
R. Civ. P. 15(d). Defendants filed their 12(b)(6) motion on July 24, 2019, [ECF No. 7]; Plaintiff

-17-

\

Case 4:19-cv-00149-SMR-HCA Document 23 Filed 04/14/20 Page 18 of 18

moved to amend on March 16,2020, [ECF No. 21]. Plaintiff is not entitled to amend his Complaint
as a matter of right
In his proposed Amended Complaint, Plaintiff submits additional factual allegations
concerning the card-playing con men involved in the altercation leading to his arrest. In short, he
alleges he recently encountered those same men at another truck stop in Georgia, and after alerting
Defendants of this information, they failed to honor his request that Defendants forward their
investigative information to Georgia police. See [ECF No. 21-1

94-101]. The proposed

amendment, however, does not add any factual allegations that alter the analysis above and are still
insufficient to state a plausible claim upon which relief can be granted. More specifically, the new
allegations similarly fail to overcome the public duty doctrine. See Part III.A, supra, at 5-6.
Accordingly, Plaintiffs motion to amend under Rule 15(a) is denied as futile. Williams v. Little
Rock Mm. Water Works, 21 F.3d 218,225 (8th Cir. 1994). And the Court, exercising its discretion
for similar reasons, declines to allow Plaintiff’s motion to supplement under Rule 15(d). See United
States ex rel. Kinney v. Stoltz, 327 F.3d 671, 673 n.4 (8th Cir. 2003) (“[The plaintiff] cannot
supplement his complaint [under Rule 15(d)] as a matter of right.”).
IV. CONCLUSION
For the reasons discussed above, Defendants’ Motion to Dismiss, [ECF No. 7], is
GRANTED in full. Plaintiffs Motion for Leave to Amend, [ECF No. 21], is DENIED.
IT IS SO ORDERED.
Dated this 14th day of April, 2020.

T

-____

K

STEPHANIE M. ROSE, JUDGE
UNITED STATES DISTRICT COURT

-18-

i

Appendix C
United States Court Of Appeals Eighth District
case # 20-2188,
Order- Rehearing En Banc Denial
Filed January 13, 2021

C23(l)

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-2188
Donald H. Kimball
Appellant
v.
Altoona Police Dept and Greg Stallman, Chief
Appellees

Appeal from U.S. District Court for the Southern District of Iowa - Central
(4:19-cv-00149-SMR)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
January 13, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appendix D
United States Court Of Appeals Eighth District
case # 20-2188,
Order- Judgment Affirmed
Filed December 09, 2020

D24(l)

r

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2188
Donald H. Kimball
Plaintiff - Appellant
v.
Altoona Police Dept; Greg Stallman, Chief
Defendants - Appellees
Appeal from U.S. District Court for the Southern District of Iowa - Central
(4:19-cv-OO 149-SMR)
JUDGMENT
Before BENTON, KELLY, and GRASZ, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby'ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
December 09, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appendix E
United States District Court for the Southern District of Iowa
case # 4:19-cv-00149-SMR-HCA
Judgment - Motion To Dismiss Granted
Filed April 15, 2020

E25(l)

vooc -T.ijrww-wAto-oiviR-nvM

L/uuuuittiii £.**

riicu U4/l9f^U

l^ciye JL Ul -L
♦

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF IOWA

i

Donald H. Kimball

Plaintiff

JUDGMENT IN A CIVIL CASE

v
CASE NUMBER: 4:19-cv-149
Altoona Police Dept
Greg Stallman
Chief

!
t
I

Defendant
(3 JURY VERDICT. This action came before the Court for trial by jury. The issues have been
tried and the jury has rendered its verdict
® DECISION BY COURT. This action came before the Court. The issues have been
considered and a decision has been rendered.

IT IS ORDERED AND ADJUDGED:
that Defendants’ Motion to Dismiss, [ECF No. 7], is GRANTED in full. Plaintiffs Motion for Leave to
Amend, [ECF No. 21], is DENIED.

Date: April 15, 2020

CLERK, U.S. DISTRICT COURT
/s./ K. Chrismer
By: Deputy Clerk

r

Appendix F
In the Iowa District Court For Polk County
case # SPCE083243
Order - Granting Authority To Release Weapon
Filed July 06, 2018

F26(l)-F28(2)

•>, *

E-FILED 2018 JUL 06 9:00 AM POLK - CLERK OF DISTRICT COURT

IN THE IOWA DISTRICT COURT FOR POLK COUNTY
IN THE MATTER OF PROPERTY
SEIZED FROM DONALD KIMBALL

CASE NO: SPCE083243
ORDER GRANTING AUTHORITY
TO
RELEASE
SEIZED

PROPERTY
TO DEFENDANT & CANCEL
STATUS CONFERENCE
i
i
i

f

NOW on this

day of July, 2018, the Court, after having reviewed the

Motion for Authority to Release Seized Property of Defendant and Waiver of Status
Conference, filed by Heather N. Handley-Cherry, Prosecutor for the City of Altoona and
the Altoona Police Department, HEREBY FINDS AS FOLLOWS:
1. That the Altoona Police Department has authority to release the seized
property currently in its care, custody and control to the Defendant upon entry
of this Order.
2. That Status Conference set for July 20th, 2018, at 10:00 a.m. at the Polk
County Courthouse, Room 211, is cancelled.

IT IS SO ORDERED.

I

E-FILED 2018 JUL 06 9:00 AM POLK - CLERK OF DISTRICT COURT
y>

State of Iowa Courts
Type:

OTHER ORDER

Case Number
SPCE083243

Case Title
SEIZED PROPERTY OF DONALD KIMBALL
So Ordered
i

i
i

r
James D. Birkenholz, District Associate Judge.
Fifth judicial District of Iowa

Electronically signed on 2018-07-06 09:00:01

page 2 of 2

I
I

I

r

4 *

Appendix G
In the Iowa District Court For Polk County
case # 05771ATSMAC376472 (POLK)
Summary Order - Simple Misdemeanor
Filed, June 29, 2018

G29(l).

V*

? *
I

Summary
Title: ALTOONA VS DONALD HARVEY KIMBALL
Case: 05771ATSMAC376472 (POLK)
Originating County

Created
i

POLK

06/29/2018

Disposition Status

Disposition Bate

GUILTY PLEA/DEFAULT

06/29/2018

Charges

01

Reopened Date

Microfilm Ref

Speedy Trial:

Conn Original
Charge

t

i

Offense
Charge Class Adjudication
Date

DISCHARGIN 06/28/201 SIMPLE
GUILTY G WEAPONS 8
MISDEMEANO NEGOTIATED/VOL
R
UN PLEA

Adiudicatio Adjudication
n Charge
Class
DISCHARGIN SIMPLE
G WEAPONS MISDEMEANO
R

\

)

Additional material
from this filing is
available in the
Clerk's Office.

